    DEPARTMENT OF HEALTH &. HUMAN SERVICES                                       Office of Inspector General


                                                                                 Washington, D.C. 20201
                                                  SEP 18 2008




TO:                 Kerry Weems
                    Acting Administrator
                    Centers for Medicare & Medicaid Services


FROM:               Daniel R. Levinson      ~ ~~
                    Inspector General


SUBJECT:            Memorandum Report: "Trends in Nursing Home Deficiencies and
                    Complaints," OEI-02-08-00 140


This memorandum report describes the nature and extent of nursing home deficiencies
and complaints in 2007 and identifies trends from 2005 to 2007. This study is part of the
Office ofInspector General's (GIG) continuing commitment to addressing the quality of
care in nursing homes. It builds on OIG's prior work by analyzing the most recent data
available on nursing home deficiencies and complaints.

In each of the past 3 years, over 91 percent of nursing homes surveyed were cited for
deficiencies and a greater percentage of for-profit nursing homes were cited for
deficiencies than not-for-profit and government nursing homes. During those same
years, the most common deficiency categories cited were quality of care, resident
assessment, and quality of life. Additionally, 17 percent ofnursing homes surveyed in
2007 were cited for actual harm or immediate jeopardy deficiencies, and 3.6 percent were
cited for substandard quality-of-care deficiencies-a slight increase since 2005. Lastly,
the number of substantiated complaints decreased nearly 3 percent since 2005.

BACKGROUND

Survey and Certification Process
All nursing homes that participate in Medicare and/or Medicaid must be certified as
meeting certain Federal requirements.! The Centers for Medicare & Medicaid Services
(CMS) contracts with States to perform nursing home surveys before nursing homes may
be certified. States must conduct these standard surveys at least every 15 months, and the
Statewide average interval between surveys must be 12 months or less. 2 Surveys are


I   Title XVIII (Parts A and B) and XIX of the Social Security Act.
1   42 CFR §§ 488.308(a) and (b).


OEI-02-08-00140             Trends in Nursing Home Deficiencies and Complaints
Page 2 – Kerry Weems


unannounced and may be conducted at any hour on any day.3 Surveys assess medical,
nursing, and rehabilitative care; dietary and nutrition services; activities and social
participation; and sanitation, infection control, and the physical environment.4

Surveyors collect data from different sources. They conduct a medical record review
based on a case-mix stratified sample of nursing facility residents.5 They also review
plans of care to determine their adequacy, audit residents’ assessments, and review
compliance with legal requirements concerning residents’ rights.6 In addition, surveyors
observe facility operations and interview residents, family members, and staff to
determine whether facilities are providing appropriate care.7

CMS provides guidance on long term care facility survey procedures and protocols
through its “State Operations Manual.” The Manual describes the intent of the
regulations pertaining to nursing homes as well as the process for determining whether
deficiencies have occurred and how to categorize them. Updates to the Manual are
issued periodically.

Deficiencies. When a nursing home fails to meet one or more of the Federal
requirements, surveyors cite a deficiency. There are 190 possible deficiencies, which fall
into the categories listed in the box below.

            Deficiency Categories
            Resident rights                                       Physician services
            Admission, transfer, and discharge rights             Rehabilitative services
            Resident behavior and facility practices              Dental services
            Quality of life                                       Pharmacy services
            Resident assessment                                   Infection control
            Quality of care                                       Physical environment
            Nursing services                                      Administration
            Dietary services                                      Laboratory and radiology services


           Sources: 42 CFR § 483, subpart B; CMS “State Operations Manual,” Appendix PP.


Surveyors also decide the scope and severity of the deficiency based on a matrix that uses
the letters “A” through “L.” See Figure 1 on the next page. The scope of the deficiency
measures the number of residents potentially or actually affected by the deficiency. The
scope rating has three different levels: isolated, pattern, and widespread. Isolated
deficiencies occur when one or a very limited number of residents or staff are affected or
the situation exists only occasionally. Pattern deficiencies occur when more than a very
limited number of residents or staff are affected or the situation occurs repeatedly.
Finally, widespread deficiencies occur when the situation is pervasive throughout the
facility or potentially affects a large portion of the nursing home’s residents.8


3
  42 CFR § 488.307(a); CMS, “State Operations Manual,” Pub. No. 100-07, ch. 7, § 7207B2, p. 34. 

4
  42 CFR § 488.305(a)(2).

5
  42 CFR § 488.305(a)(1).

6
  42 CFR §§ 488.305(a)(3) and (4). 

7
  42 CFR § 488.110(f). 

8
  CMS, “State Operations Manual,” Pub. No. 100-07, App. P, pp. 93–94. 




OEI-02-08-00140             Trends in Nursing Home Deficiencies and Complaints
Page 3 – Kerry Weems


The severity rating measures the extent of the health and safety risk to residents. The
most serious level, immediate jeopardy, occurs in “a situation in which the provider’s
noncompliance with one or more of the requirements of participation has caused, or is
likely to cause, serious injury, harm, impairment or death to a resident.”9 Immediate
jeopardy requires the nursing home to take immediate corrective action. The three levels
of deficiencies that are not immediate jeopardy are: (1) actual harm that is not immediate
jeopardy; (2) no actual harm with a potential for more than minimal harm, but not
immediate jeopardy; and (3) no actual harm with a potential for minimal harm.10

        Figure 1: Scope and Severity Matrix for Nursing Home Deficiencies

                                                                     Scope of the Deficiency
                                                                       Isolated         Pattern   Widespread

                                        Immediate jeopardy to
                                                                       J                K         L
           Severity of the Deficiency




                                        resident health or safety


                                        Actual harm that is not
                                                                       G                H         I
                                        immediate jeopardy

                                        No actual harm with a
                                        potential for more than
                                                                       D                E         F
                                        minimal harm, but not
                                        immediate jeopardy

                                        No actual harm with
                                                                       A                B         C
                                        potential for minimal harm

        Note: Shading indicates substandard quality of care for the categories of quality of care, 

        quality of life, and resident behavior and facility practices. 



The scope and severity of the deficiency are primary factors in determining the
appropriate corrective action to be taken.11 Corrective actions include termination of
participation in Medicare and Medicaid, civil money penalties, State monitoring, transfer
of residents, and closure of the facility, among other remedies.12

Substandard Quality of Care. Substandard quality of care exists when a facility has one
or more deficiencies at the more serious scope and severity levels within certain
categories. The scope and severity levels of substandard quality of care are shown in the
shaded area of Figure 1 above. The categories related to substandard quality of care are
quality of care, quality of life, and resident behavior and facility practices. A brief
description of these categories is provided in the box on the next page.




9
  42 CFR § 488.301.
10
   42 CFR § 488.404(b)(1).
11
   42 CFR § 488.404(b).
12
   42 CFR § 488.406(a).



OEI-02-08-00140                                  Trends in Nursing Home Deficiencies and Complaints
Page 4 – Kerry Weems



                                                                If a nursing home is found to have
The Three Deficiency Categories Related                         provided substandard quality of care,
to Substandard Quality of Care                                  surveyors must conduct an extended
Quality of Care: Includes, among other issues,                  survey within 14 days. An extended
appropriate treatment to prevent and treat pressure sores
and urinary tract infections and resident freedom from
                                                                survey includes a review of the policies
unnecessary drugs and significant medication errors.            and procedures related to such substandard
Quality of Life: Includes, among other issues, care that
                                                                quality of care as well as an examination
maintains or enhances dignity; the provision of social          of staffing, training, and a larger sample of
services to attain the highest practicable well-being of each
resident; and a safe, clean, comfortable, and homelike
                                                                residents’ assessments.13 Substandard
environment.                                                    quality of care requires specific corrective
Resident Behavior and Facility Practices: Includes,
                                                                actions such as a directed plan of
among other issues, freedom from physical or chemical           correction, temporary management
restraints for purposes of discipline and convenience and
freedom from abuse, corporal punishment, and involuntary
                                                                change, or termination of the provider
seclusion.                                                      agreement.

Complaints. Surveyors also investigate complaints. Complaints may be made by
nursing home residents, family members, and facility employees, among others, and may
be either verbal or written.14 State survey agencies must review all allegations.
Depending on the outcome of the review, the survey agency may conduct a standard or
abbreviated standard survey to investigate the allegation.15 These allegations are either
substantiated or unsubstantiated during the survey. A substantiated allegation results in
the citation of a deficiency.16 Surveyors may also cite additional deficiencies during this
process. Complaints are grouped into the categories listed in the box below.17

            Complaint Categories
            Resident abuse                            Proficiency testing
            Resident neglect                          Falsification of records/reports
            Resident rights                           Unqualified personnel
            Patient dumping                           Quality control
            Environment                               Specimen handling
            Care or services                          Diagnostic discrepancy/erroneous test results
            Dietary                                   Fraud/false billing
            Misuse of funds/property                  Fatality/transfusion fatality
            Certification/unauthorized testing        Other


           Source: CMS Form 562.




13
   42 CFR § 488.310.

14
   CMS, “State Operations Manual,” Pub. No. 100-07, ch. 5, § 5010, pp. 7–8. 

15
   42 CFR § 488.308(e)(2).

16
   CMS Form 562. 

17
   These categories are also used for hospitals. Some categories, such as patient dumping, are not relevant

to nursing homes. 




OEI-02-08-00140               Trends in Nursing Home Deficiencies and Complaints
Page 5 – Kerry Weems


Related Work
In 2003, OIG published a report entitled “Nursing Home Deficiency Trends and Survey
and Certification Process Consistency.” This report found that the percentage of nursing
homes with deficiencies, the total number of deficiencies, and the average number of
deficiencies per nursing home increased between 1998 and 2001. In addition, there was
wide variation among States in the percentage of nursing homes with deficiencies and the
average number of deficiencies per home. OIG found that this variability was due at least
in part to differences in the survey process among States. Factors contributing to these
differences included inconsistent survey focus, unclear Federal guidelines on citing
deficiencies, and the lack of a common review process for draft survey reports.

METHODOLOGY

The information provided in this memorandum report is based on an analysis of data
from CMS’s Online Survey and Certification Reporting System (OSCAR). OSCAR
includes the results of all State nursing home surveys. It contains the most current survey
and the three previous surveys for every nursing home that is certified for Medicare
and/or Medicaid.

To carry out our analysis, we identified all surveys conducted in 2005, 2006, and 2007
that were included in OSCAR. If a nursing home had more than one survey in a
particular year, we included only the most recent survey for that year. We also used
OSCAR to identify for-profit, not-for-profit, and government nursing homes as well as
nursing homes that were part of an organization that owned two or more facilities
(hereafter referred to as “multifacility”) and those that were not (hereafter referred to as
“single-facility”).

We analyzed OSCAR data to determine the nature and extent of nursing home
deficiencies and to identify trends. For each year, we determined the number of nursing
homes surveyed, the percentage with at least one deficiency, and the average number of
deficiencies per nursing home. In addition, we examined the scope and severity of
deficiencies and determined the percentage of nursing homes that were cited for
deficiencies considered substandard quality of care. We identified trends in these
measures from 2005 to 2007. We also described instances in which there were
differences of at least 1 percentage point among for-profit, not-for-profit, and government
nursing homes and between multifacility and single-facility nursing homes. In all cases,
the percentages cited were based on nursing homes that were surveyed.

We also obtained complaint information for 2005, 2006, and 2007 from OSCAR. We
analyzed this information to determine the nature and extent of complaints and to identify
trends. A complaint may contain several allegations. For the purposes of this report, we
refer to each allegation as a “complaint.” We determined the number of substantiated
complaints and the number of nursing homes associated with these complaints.




OEI-02-08-00140       Trends in Nursing Home Deficiencies and Complaints
Page 6 – Kerry Weems


This memorandum report describes the nature and extent of nursing home deficiencies
and complaints in 2007 and identifies trends from 2005 to 2007. This review was not
designed to provide explanations for changes in these measures.

This review was conducted in accordance with the “Quality Standards for Inspections”
issued by the President’s Council on Integrity and Efficiency and the Executive Council
on Integrity and Efficiency.

RESULTS

In Each of the Past 3 Years, Over 91 Percent of Nursing Homes Surveyed Were
Cited for Deficiencies
In 2005, 2006, and 2007, more than 91 percent of nursing homes surveyed were cited for
deficiencies. Although this percentage remained stable during this time, it has increased
over the last decade. According to the 2003 OIG report, the percentage of nursing homes
cited for deficiencies increased from 81 percent in 1998 to 89 percent in 2001.18 Table 1
below shows the trends in deficiencies from 2005 to 2007.

In the past 3 years, the average number of deficiencies per nursing home increased
slightly. In 2007, nursing homes were cited for an average of 7.0 deficiencies per home,
compared to 6.4 deficiencies in 2005. During this period, the total number of
deficiencies rose by almost 10 percent, while the number of nursing homes surveyed
decreased by 1 percent.

Table 1: Trends in Deficiencies, 2005–2007
                                                                                Percentage Change
                                                    2005      2006      2007
                                                                                        2005–2007
Percentage of nursing homes with deficiencies      91.1%     91.8%     91.9%                0.9 %*
Average number of deficiencies per nursing home       6.4       6.9       7.0              10.7%*
Total number of deficiencies                       95,624   102,487   104,665                9.5%
Total number of nursing homes surveyed             15,046    14,954    14,872               -1.2%
Source: OIG analysis of OSCAR data, 2008.
*Percentage change may vary because of rounding.


Deficiency rates varied widely among States. In 2007, the percentage of nursing homes
surveyed with deficiencies ranged from 76 percent in Rhode Island to 100 percent in
Alaska, the District of Columbia, Idaho, and Wyoming. The average number of
deficiencies also varied among States, from 2.5 deficiencies per nursing home in
Rhode Island to 14.4 in the District of Columbia. These ranges were similar for each of
the past 3 years. See Appendixes A and B for the trends in deficiencies by State.

A Greater Percentage of For-Profit Nursing Homes Were Cited for Deficiencies
Than Not-for-Profit and Government Nursing Homes in Each of the Past 3 Years
In 2007, 94 percent of for-profit nursing homes surveyed were cited for deficiencies,
compared to 88 percent of not-for-profit and 91 percent of government nursing homes.

18
 OIG, “Nursing Home Deficiency Trends and Survey and Certification Process Consistency,”
OEI-02-01-00600, March 2003, p. 7.



OEI-02-08-00140               Trends in Nursing Home Deficiencies and Complaints
Page 7 – Kerry Weems


See Figure 2 below. Since 2005, the percentages of for-profit nursing homes with
deficiencies were between 3 and 6 points higher than the percentages of the other types of
nursing homes with deficiencies. In each of the past 3 years, for-profit nursing homes
made up 67 percent of the nursing homes surveyed, not-for-profit homes accounted for
27 percent, and government-owned homes accounted for the remaining 6 percent.

Figure 2: Percentage of Nursing Homes Surveyed With Deficiencies by Type of Ownership,
2005–2007

                                96

                                                                  93.4                          93.5
  Percentage of Nursing Homes




                                94   93.0

                                92
                                                                                 90.2                         90.5
                                                    89.9
                                90
                                                                          88.0                         88.4
                                88
                                             86.8
                                86

                                84

                                82
                                            2005                          2006                         2007

                                            For-Profit             Not-for-Profit                Government


 Source: OIG analysis of OSCAR data, 2008.


For-profit nursing homes also had a higher average number of deficiencies per home than
the other types of nursing homes. In 2007, for-profit nursing homes averaged
7.6 deficiencies per home, while not-for-profit and government homes averaged 5.7 and
6.3, respectively. As Table 2 below shows, the averages for all types of nursing homes
increased since 2005.

In addition, a greater percentage of multifacility nursing homes were cited for
deficiencies, compared to single-facility nursing homes. In 2007, 93 percent of
multifacility nursing homes surveyed were cited for deficiencies, as opposed to 91
percent of single-facility nursing homes. These numbers have not changed significantly
since 2005. The average number of deficiencies was also higher for multifacility homes
than for single-facility homes in each of the past 3 years. See Table 2 below.

 Table 2: Average Number of Deficiencies per Nursing Home Surveyed
 by Type of Home, 2005–2007
 Type of Nursing Home                                      2005     2006         2007     Percentage Change*
 For-profit                                                 7.0          7.4        7.6                 9.8%
 Not-for-profit                                             5.1          5.6        5.7                13.1%
 Government                                                 5.5          6.0        6.3                14.1%
 Multifacility                                              6.6          7.2        7.3                10.9%
 Single-facility                                            6.1          6.5        6.7                10.4%
Source: OIG analysis of OSCAR data, 2008. 

*Percentage change may vary because of rounding. 





OEI-02-08-00140                                     Trends in Nursing Home Deficiencies and Complaints
Page 8 – Kerry Weems


The Most Common Deficiency Categories Cited in Each of the Past 3 Years Were
Quality of Care, Resident Assessment, and Quality of Life
The most common deficiency categories cited in 2005, 2006, and 2007 were quality of
care, resident assessment, and quality of life. As shown in bold in Table 3 below, almost
74 percent of nursing homes surveyed were cited for quality-of-care deficiencies in 2007.
The most common quality-of-care deficiencies involved accident hazards; providing care
for residents’ highest practicable physical, mental, and psychosocial well-being; and
urinary incontinence. About 58 percent of nursing homes were cited for resident
assessment deficiencies. The most common resident assessment deficiencies involved
services meeting professional quality standards, comprehensive care plans, and service
provision by qualified persons. Over 43 percent of nursing homes were cited for quality-
of-life deficiencies. The most common quality-of-life deficiencies involved
housekeeping and maintenance services, dignity, and accommodation of needs. In
addition, almost 43 percent of nursing homes were cited for deficiencies in the dietary
services category.

      Table 3: Percentage of Nursing Homes Surveyed That Received at Least One Deficiency
      by Category, 2005–2007

                                                                                         Percentage-Point
      Deficiency Category                                       2005       2006   2007         Difference,
                                                                                              2005–2007*

      Quality of care                                               70.6   71.5   73.6                 3.1
      Resident assessment                                           54.4   58.0   58.2                 3.8
      Quality of life                                               43.1   45.6   43.3                 0.2
      Dietary services                                              43.1   44.4   42.9                -0.2
      Resident rights                                               33.4   34.5   34.3                 0.9
      Administrative services                                       28.9   31.5   30.7                 1.9
      Pharmacy services                                             23.8   25.3   28.8                 5.0
      Infection control                                             26.3   28.7   28.4                 2.1
      Resident behavior and facility practices                      26.4   26.7   27.4                 1.0
      Physical environment                                          22.9   23.7   23.8                 0.9
      Laboratory and radiology services                              6.9    7.9    9.1                 2.2
      Nursing services                                               4.2    5.3    6.9                 2.7
      Physician services                                             4.6    5.4    5.7                 1.1
      Admission, transfer, discharge rights                          1.6    1.6    1.7                 0.1
      Rehabilitative services                                        1.3    1.5    1.4                 0.2
      Dental services                                                1.2    1.4    1.4                 0.2
     Source: OIG analysis of OSCAR data, 2008. 

     *Percentage-point difference may vary because of rounding. 



The 2003 OIG report found that the most common deficiency categories cited in 2001
were also quality of care, resident assessment, quality of life, and dietary services, in the
same descending order.19 During that year, 68 percent of nursing homes were cited for

19
 OIG, “Nursing Home Deficiency Trends and Survey and Certification Process Consistency,”
OEI-02-01-00600, March 2003, p. 9.



OEI-02-08-00140                 Trends in Nursing Home Deficiencies and Complaints
Page 9 – Kerry Weems


quality-of-care deficiencies, 50 percent were cited for resident assessment deficiencies,
43 percent were cited for quality-of-life deficiencies, and 42 percent had dietary services
deficiencies.

Most categories of deficiencies had minor increases between 2005 and 2007. The
pharmacy services category measured the largest percentage-point increase. Deficiencies
cited in this category, which addresses the accurate dispensation and administration of
drugs to residents, increased by 5 percentage points. This increase coincided with the
implementation in 2006 of Medicare Part D, which provided voluntary drug coverage to
Medicare beneficiaries. In addition, CMS issued guidance in late 2006 that combined
several drug-related deficiencies and revised its guidelines for citing these deficiencies.

Three types of deficiencies have been the most common since 2005. Approximately
36 percent of nursing homes surveyed were cited for deficiencies associated with
accident hazards each year; between 33 percent and 35 percent of nursing homes were
cited for deficiencies for the improper storage, preparation, distribution, or serving of
food; and almost 28 percent were cited for deficiencies for not providing the care
necessary for residents’ highest practicable physical, mental, and psychosocial well-
being. These most common deficiencies fell within the quality-of-care category and the
dietary services category.

Almost 17 Percent of Nursing Homes Surveyed Were Cited for Actual Harm or
Immediate Jeopardy Deficiencies in 2007
In 2007, nearly 17 percent of nursing homes surveyed were cited for immediate jeopardy
or actual harm deficiencies. Specifically, almost 3 percent of nursing homes were cited
for immediate jeopardy deficiencies, and 15 percent were cited for actual harm
deficiencies in 2007.20 The majority of the nursing homes with actual harm deficiencies
had isolated (G-level) rather than pattern or widespread deficiencies (H- and I-level).

The most common scope and severity ratings in 2007 were at the D and E levels.
Eighty-three percent of nursing homes surveyed were cited for D-level deficiencies, and
63 percent were cited for E-level deficiencies. Both ratings indicate a severity of no
actual harm with potential for more than minimal harm. Although most of the scope and
severity levels did not change substantially since 2005, there was a small shift from
B-level to C-, E-, and F-level deficiencies. This trend indicates that nursing homes were
cited for more severe deficiencies as well as deficiencies that were wider in scope in
2007, compared to those in the prior 2 years. Table 4 on the next page shows the scope
and severity levels for 2005 through 2007, with the largest percentage-point changes in
bold.




20
     One percent was cited for both deficiencies.



OEI-02-08-00140             Trends in Nursing Home Deficiencies and Complaints
Page 10 – Kerry Weems



                   Table 4: Percentage of Nursing Homes Surveyed That Had
                   at Least One Deficiency by Scope and Severity Levels,
                   2005–2007
                   Scope and                                                    Percentage-Point
                   Severity               2005           2006           2007          Difference,
                   Level                                                             2005–2007*

                   A                      0.0%           0.0%           0.0%                  0.0
                   B                     30.5%          28.7%          27.6%                 -3.0
                   C                     20.8%          21.9%          22.2%                  1.4
                   D                     82.4%          83.1%          83.2%                  0.9
                   E                     58.4%          61.8%          62.8%                  4.4
                   F                     19.2%          21.1%          21.2%                  2.0
                   G                     14.1%          15.4%          14.9%                  0.7
                   H                      1.0%           1.1%           1.0%                  0.1
                   I                      0.1%           0.1%           0.1%                  0.0
                   J                      1.2%           1.1%           1.3%                  0.1
                   K                      1.0%           1.0%           1.2%                  0.2
                   L                      0.4%           0.4%           0.4%                  0.1
                  Source: OIG analysis of OSCAR data, 2008. 

                  *Percentage-point difference may vary because of rounding.



According to the 2003 OIG report, the most common scope and severity ratings in 2001
were also at the D and E levels.21 However, the percentage of nursing homes with these
ratings was somewhat lower than the figures above, at 77 percent and 55 percent,
respectively. In addition, OIG reported that between 1998 and 2001, there was a shift
away from G-level to more D- and E-level deficiencies. This shift demonstrated that
nursing homes had deficiencies that were less severe but equal or wider in scope in 2001
compared to 1998.

In each of the past 3 years, a higher percentage of for-profit nursing homes surveyed were
cited for immediate jeopardy or actual harm deficiencies, compared to the other types of
nursing homes. In 2007, 17 percent of for-profit nursing homes surveyed were cited for
these deficiencies, compared to 15 percent of not-for-profit and government homes. In
addition, a slightly greater percentage of multifacility nursing homes were cited for
immediate jeopardy or actual harm deficiencies, compared to single-facility homes, at
17 percent and 16 percent, respectively.

Substandard Quality-of-Care Deficiencies Increased Slightly Since 2005
The percentage of nursing homes with substandard quality-of-care deficiencies has risen
slightly since 2005. In 2007, 3.6 percent of nursing homes surveyed were cited for these
deficiencies, up from 3.0 percent in 2005. The small increase in substandard quality of
care differs from the slight downward trend in the 2003 OIG report.22 That report found

21
   OIG, “Nursing Home Deficiency Trends and Survey and Certification Process Consistency,” 

OEI-02-01-00600, March 2003, p. 11. 

22
   Ibid., p. 10.




OEI-02-08-00140           Trends in Nursing Home Deficiencies and Complaints
Page 11 – Kerry Weems


that the percentage of nursing homes cited for quality-of-care deficiencies decreased from
4.5 percent in 1998 to 4.2 percent in 2001.

The percentage of for-profit nursing homes with substandard quality-of-care deficiencies
was higher compared to the other types of nursing homes. In 2007, 4.2 percent of
for-profit homes were cited for these deficiencies, in contrast to 2.3 percent of
not-for-profit homes and 3.0 percent of government homes. These percentages increased
slightly for all three types of homes since 2005. During the same time, the percentage of
multifacility homes with substandard quality of care deficiencies increased from
2.9 percent to 3.9 percent while the percentage of single-facility homes stayed at about
3 percent.

The Number of Substantiated Complaints Decreased Slightly Since 2005
The number of substantiated complaints decreased nearly 3 percent since 2005. As
shown in Figure 3 below, a total of 14,394 complaints were substantiated in 2007, a
decrease from 14,781 in 2005. The total number of complaints has similarly decreased
since 2005. Almost 39 percent of complaints in each year were substantiated.

The number of nursing homes associated with these complaints also decreased. In 2007,
2,759 nursing homes were associated with at least one substantiated complaint, compared
to 2,856 in 2005. In each of the past 3 years, almost 40 percent of these complaints were
related to care or services. About 20 percent of substantiated complaints involved
resident abuse or neglect.
Figure 3: Numbers of Complaints and Substantiated Complaints, 2005–2007

  45,000
                                             40,716
  40,000          38,147                                                   37,153
  35,000

  30,000

  25,000

  20,000
                           14,781                      15,806
                                                                                    14,394
  15,000

  10,000

    5,000

        0
                        2005                     2006                            2007

                               Complaints             Substantiated Complaints


 Source: OIG analysis of OSCAR data, 2008.




OEI-02-08-00140                Trends in Nursing Home Deficiencies and Complaints
Page 12 – Kerry Weems


CONCLUSION

Deficiency rates have not changed significantly over the past 3 years. More than
91 percent of nursing homes surveyed were cited for deficiencies, and a greater
percentage of for-profit nursing homes were cited for deficiencies than not-for-profit and
government nursing homes. The most common deficiency categories cited in each of the
past 3 years were quality of care, resident assessment, and quality of life. Additionally,
17 percent of nursing homes surveyed in 2007 were cited for actual harm or immediate
jeopardy deficiencies, and 3.6 percent were cited for substandard quality-of-care
deficiencies—a slight increase since 2005. Lastly, the number of substantiated
complaints decreased nearly 3 percent since 2005.

We note that many factors in addition to quality of care may affect deficiency rates.
These factors may include an increase in enforcement, additional guidance or training
from States and CMS, legislative changes, and State surveyor practices.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-02-08-00140 in all correspondence.




OEI-02-08-00140      Trends in Nursing Home Deficiencies and Complaints
Page 13 – Kerry Weems

                  Appendix A
                  Percentage of Nursing Homes Surveyed With
                  Deficiencies by State, 2005–2007
                  STATE                         2005            2006     2007
                  Alabama                     97.6%            97.0%    96.8%
                  Alaska                      80.0%           100.0%   100.0%
                  Arizona                     92.9%            96.2%    97.4%
                  Arkansas                    95.4%            97.6%    97.9%
                  California                  98.6%            98.2%    99.1%
                  Colorado                    95.0%            95.9%    96.6%
                  Connecticut                 95.6%            97.4%    98.7%
                  Delaware                    97.6%           100.0%    97.6%
                  District of Columbia       100.0%           100.0%   100.0%
                  Florida                     97.1%            96.8%    97.2%
                  Georgia                     95.2%            95.0%    88.1%
                  Hawaii                     100.0%            97.9%    97.4%
                  Idaho                       94.4%           100.0%   100.0%
                  Illinois                    87.1%            87.5%    90.4%
                  Indiana                     89.2%            88.9%    89.1%
                  Iowa                        85.3%            86.6%    88.4%
                  Kansas                      92.3%            95.2%    96.9%
                  Kentucky                    90.1%            91.2%    87.6%
                  Louisiana                   92.5%            91.8%    94.7%
                  Maine                      100.0%            98.2%    95.2%
                  Maryland                    93.4%            96.9%    94.4%
                  Massachusetts               83.3%            81.4%    80.3%
                  Michigan                    95.4%            94.4%    96.0%
                  Minnesota                   96.6%            98.6%    97.5%
                  Mississippi                 86.6%            87.1%    86.7%
                  Missouri                    88.0%            89.7%    92.5%
                  Montana                     96.5%            92.8%    91.4%
                  Nebraska                    86.9%            91.6%    91.4%
                  Nevada                      82.6%            90.9%    83.3%
                  New Hampshire               85.7%            70.3%    83.5%
                  New Jersey                  88.7%            88.0%    92.2%
                  New Mexico                  92.7%            92.5%    97.1%
                  New York                    90.4%            91.2%    92.0%
                  North Carolina              88.8%            91.1%    89.6%
                  North Dakota                98.7%            97.6%    93.5%
                  Ohio                        86.1%            85.9%    87.4%
                  Oklahoma                    93.7%            95.5%    93.8%
                  Oregon                      72.6%            74.1%    81.4%
                  Pennsylvania                89.7%            93.4%    89.7%
                  Rhode Island                85.7%            86.8%    76.3%
                  South Carolina              93.1%            96.9%    92.7%
                  South Dakota                89.8%            94.2%    88.6%
                  Tennessee                   95.5%            91.1%    92.0%
                  Texas                       92.1%            91.4%    89.6%
                  Utah                        86.3%            93.3%    97.5%
                  Vermont                     91.7%           100.0%    94.6%
                  Virginia                    84.4%            87.2%    93.1%
                  Washington                  90.9%            91.5%    90.9%
                  West Virginia               97.5%            96.2%    95.8%
                  Wisconsin                   79.3%            83.8%    85.6%
                  Wyoming                    100.0%           100.0%   100.0%
                  Source: OIG analysis of OSCAR data, 2008.




OEI-02-08-00140      Trends in Nursing Home Deficiencies and Complaints
Page 14 – Kerry Weems

                  Appendix B
                  Average Number of Deficiencies per Nursing Home
                  Surveyed by State, 2005–2007
                  STATE                            2005       2006   2007
                  Alabama                           7.2        6.8    6.4
                  Alaska                            5.3        9.5    6.5
                  Arizona                           8.7        9.2    7.7
                  Arkansas                          9.3       10.7    8.6
                  California                       10.2       11.3   11.8
                  Colorado                          8.5        9.3    9.7
                  Connecticut                       8.0        8.5    9.0
                  Delaware                          8.3       13.1   13.3
                  District of Columbia             13.6       12.5   14.4
                  Florida                           7.5        8.3    8.0
                  Georgia                           6.6        6.8    6.5
                  Hawaii                            8.5        7.0    7.0
                  Idaho                             8.8        9.9    8.7
                  Illinois                          4.4        4.9    5.3
                  Indiana                           5.8        6.8    7.9
                  Iowa                              4.2        4.3    5.0
                  Kansas                            8.9        9.8    9.9
                  Kentucky                          4.5        5.5    4.5
                  Louisiana                         8.2        7.1    7.9
                  Maine                             8.5        8.3    8.3
                  Maryland                          7.8        9.5    9.8
                  Massachusetts                     5.3        5.2    5.5
                  Michigan                          7.4        7.6    8.8
                  Minnesota                         8.5       10.1   10.2
                  Mississippi                       3.7        4.0    4.3
                  Missouri                          6.2        7.1    8.2
                  Montana                           6.3        6.4    6.9
                  Nebraska                          4.1        5.3    6.9
                  Nevada                            9.4       10.2    6.9
                  New Hampshire                     5.5        4.5    4.4
                  New Jersey                        4.2        4.3    4.3
                  New Mexico                        7.7        7.1    7.1
                  New York                          4.1        4.6    5.3
                  North Carolina                    4.9        4.7    4.4
                  North Dakota                      4.8        4.8    4.3
                  Ohio                              4.5        4.8    5.5
                  Oklahoma                          8.0        8.9    9.1
                  Oregon                            4.7        4.8    4.7
                  Pennsylvania                      4.6        5.2    4.6
                  Rhode Island                      4.9        3.5    2.5
                  South Carolina                    8.2        7.9    7.6
                  South Dakota                      4.0        4.9    4.5
                  Tennessee                         6.6        5.9    5.7
                  Texas                             6.5        6.8    6.5
                  Utah                              4.2        4.7    5.7
                  Vermont                           6.4        7.2    8.0
                  Virginia                          5.2        6.4    7.3
                  Washington                        6.3        6.3    6.6
                  West Virginia                     7.9        7.8    8.6
                  Wisconsin                         3.3        4.2    4.7
                  Wyoming                           7.9       15.1   12.3
                  Source: OIG analysis of OSCAR data, 2008.




OEI-02-08-00140     Trends in Nursing Home Deficiencies and Complaints
